VIRGINIA:
Jn the Supreme Qawd of Virginia held at the Supneme Qaivtl Stuiddiny in the
Oily, of, Jticfunond on Wednesday the 28th day of fuiy, 2021.
Michael Alan Webb,
against

Appellant,

Record No. 200282
Court of Appeals No. 0789-19-1

Commonwealth of Virginia,

Appellee.
From the Court of Appeals of Virginia

Upon review of the record in this case and consideration of the argument submitted in
support of the granting of an appeal, the Court refuses the petition for appeal.
The Circuit Court of the City of Williamsburg and James City County shall allow courtappointed counsel the fee set forth below and also counsel’s necessary direct out-of-pocket
expenses. And it is ordered that the Commonwealth recover of the appellant the costs in this
Court and in the courts below.
Costs due the Commonwealth
by appellant in Supreme
Court of Virginia:
Attorney’s fee

$950.00 plus costs and expenses
A Copy,
Teste:
Muriel-Theresa Pitney, Acting Clerk
By:

(

Deputy Clerk

VIRGINIA:
In the Court ofAppeals of Virginia on Wednesday the 27th day of November, 2019.

Michael Alan Webb,
against

Appellant,

Record No. 0789-19-1
Circuit Court No. CR27354-00

Commonwealth of Virginia,

Appellee.

From the Circuit Court of the City of Williamsburg and County of James City
Per Curiam

This petition for appeal has been reviewed by a judge of this Court, to whom it was referred pursuant
to Code § 17.1-407(C), and is denied for the following reasons:
I. A jury found appellant guilty of the first-degree murder of his mother. Appellant contends that the
trial court erred by denying his motion to suppress evidence obtained by the police when they entered his
residence “without a warrant, and without exigent circumstances to satisfy the emergency or community
caretaker exceptions.”
“When this Court reviews a trial court’s ruling on a motion to suppress, ‘the appellant bears the
burden of showing that the ruling, when the evidence is considered most favorably to the Commonwealth,
constituted reversible error.”’ Scott v. Commonwealth. 68 Va. App. 452,458 (2018) (quoting Sanders v.
Commonwealth. 64 Va. App. 734, 743 (2015)). //A]n appellate court must give deference to the factual
)

findings of the circuit court and give due weight to the inferences drawn from those factual findings;
however, the

lependeni

obtained meets the requirements of the Fourth Amendment.” Moore v. Commonwealth. 69 Va. App. 30, 36
(2018) (quoting Commonwealth v, Robertson. 275 Va. 559, 563 (2008)). “On appeal, a ‘defendant’s claim
that evidence was seized in violation of the Fourth Amendment presents a mixed question of law and fact that
we review de novoCole v. Commonwealth. 294 Va. 342, 354 (2017) (quoting Cost v. Commonwealth.

9^0
275 Va. 246,250 (2008)), “When reviewing a denial of a motion to suppress evidence,

an appellate court

considers the evidence in the light most favorable to the Commonwealth and ‘will accord the Commonwealth
the benefit of all reasonable inferences fairly deducible from that evidence.’” Taylor v. Commonwealth. 70
Va. App. 182, 186 (2019) (quoting Sidney v. Commonwealth 280 Va. 517, 520 (2010)).
On May 17,2017, Maiy Walker, a supervisor at Eastern State Hospital, learned that Edna Webb

, one

of Walker’s employees, had not arrived at work that morning. Walker testified that Webb was a consistently
reliable employee and that she “did not miss many days of work, and whenever she was absent, she would
notify [Walker] ahead of time” to let her know that she would be out or late. Webb was scheduled to be at
work at approximately 8:15 a.m. and Walker was notified around 9:00 a.m. that Webb had not arrived or
called to say she would be late. Walker knew that appellant, Webb’s son, had mental health problems,
recently had returned home from prison, and was not taking his medication. Webb had shared with Walker
“that [appellant] was making some bizarre statements” and that appellant felt like Webb “was against him.”
Webb also had told Walker that appellant was “restless and not well.” When Walker called Webb’s
residence, appellant informed Walker that Webb was still asleep. Walker asked appellant to wake her up, but
appellant refused. Walker also called Webb’s cell phone but received no answer. Walker “was very
concerned” because Webb was ‘Very predictable and very reliable” and ordinarily would have called to say
that she would be late.
Walker shared her concerns with her co-worker, Nanette Brett. Brett also called Webb’s home and
spoke with appellant. Appellant again stated that Webb was asleep and that he would not wake her up.
Appellant told Brett that “he was having trouble with his mother and she was trying to put him out of the
house.” Appellant also told Brett that he had had an argument with his mother and that “they were not
speaking or talking.” Walker had a “bad feeling.” She called the police and asked them to do a welfare
check.
James City County Police Officer Brandon Frantz traveled to Webb’s house to conduct the welfare
check. Frantz had received the information Walker had provided to the nolice, including thp
-2-

W

4F

s'

th„t

r.r

appellant was “mentally unstable” and had not been taking his medication. Frantz arrived at Webb’s house :
shortly before 10:00 in the morning. Frantz noted that Webb’s car was parked outside her house, and he

knocked on the front door. Frantz knocked four or five times without a response. Frantz “heard what [he]
thought was footsteps or movements upstairs above” where he stood. Officer Slodysko arrived on the scene.
and walked to the back of the house. A neighbor asked Frantz if he was looking for Webb and informed him
that both of Webb’s cars were parked out front and that Webb “should be there Unless she went off with
somebody else.” Frantz continued knocking until Slodysko advised him that a sliding glass door at the back
of the house was unlocked. Slodysko had opened the door and called inside, but he received no response.
Frantz joined Slodysko at the back of the house, and the two officers entered the residence through the sliding
glass door.
The door led to the kitchen, and Frantz immediately noted that the floor was soapy as if someone had
been cleaning it. Frantz then saw a body wrapped in a blanket underneath trash bags. The body was later
identified as Webb’s.
Appellant argues that the evidence found in the residence should have been suppressed because the
police entered the house without a warrant. “Searches and seizures conducted without a warrant are
presumptively invalid.” Knight v. Commonwealth. 61 Va. App. 297, 306 (2012). “However, there are a

"A

//

number of functions that police routinely perform that are outside of their duty to investigate crimes,and
apprehend those suspected of committing them. These functions are broadly referred to as the ‘community
caretaking’ functions of the police.” Cantrell v. Commonwealth. 65 Va. App. 53, 59 (2015). “Because these
functions do not involve the investigation of criminal activity, when they are properly performed by the
police, a search warrant may not be necessary when these community caretaking functions are being earned
out.” Id. The community caretaker exception “recognizes that ‘police owe “duties to the public, such as
rendering aid to individuals in danger of physical harm, reducing the commission of crimes through patrol
and other preventive measures, and providing services on an emergency basis.’”” Kyer v. Commonwealth.
45 Va. App. 473,480-81 (2005) (en banc) (quoting Reynolds v. Commonwealth. 9 Va. App. 430,436
-3-

■ ’• .• v

exception iSrclaimed under the community caretaker doctrine, the claim “must be
■ '^scnitinized to rnSiire that it is not mere pretext for entries and searches that otherwise fall under the
requirement for a warrant.” Reynolds. 9 Va. App. at 438 (quoting State v. Monroe. 611 P.2d 1036, 1040
(Idaho 1980), vacated on other grounds. 451 U.S. 1014 (1981)). “It is well established that ‘[objective
|

L
reasonableness remains the linchpin of determining the validity of action taken under the community
caretaker doctrine.’” Cantrell. 65 Va. App. at 64 (quoting King v. Commonwealth. 39 Va. App. 306, 312
(2002)).

Here, the police traveled to Webb’s house after Walker’informed them that the dependably punctual
Webb had not arrived at work and had not called to say she would be late. Walker also reported that

I

appellant recently had returned home, had been acting bizarrely, and had expressed the feeling that Webb was
“against him.” Appellant had claimed that Webb was asleep upstairs but refused to attempt to wake her
despite Walker’s and Brett’s urging that they needed to speak with her. When the police arrived at the house,
they found Webb’s vehicles at the residence. Despite repeated knockings and the sound of footsteps within
the house, no one answered the front door or Slodysko’s calls from the rear of the house. The trial-court
found'.that “it;is'wholly TeasoriaBle’aifrdertHese'circurnstances"[fdrrthe^)olice]:to.go'ihside‘th'af house” and
//
V\
__________
conduct a welfare check s The record supports the trial court’s conclusion.that4he police-lawfullv-ehtered4he
house underdhe.’community caretaker exceptiomto-the^warrant .requirement. -Therefore; we find no error with .
the^triakcou^>s!demalfdffappellahtislmotion,tb:siippT:ess!
i

II. Appellant contends that the trial court erred “when it found that [he] held the mental competency
to represent himself at trial in violation of his Sixth Amendment right to a fair trial.”
“The Sixth Amendment guarantees a criminal defendant ‘the Assistance of Counsel for his defence.’”
Edwards v. Commonwealth. 49 Va. App. 727, 734 (2007) (quoting U.S. Const, amend. VI). “This textual
right, it has been held, ‘implies’ the concomitant right to be unassisted by counsel.” Id. (quoting Faretta v.
California. 422 U.S. 806, 821 (1975)). “Whether a waiver is voluntary andxpmp_etent depends upon the
P
— NN<
particular circumstances of each case, including the defendant’s backgroun^experience, and conduct, but no

particular cautionary instructigno^^rm is required” Watkins v. Commonwealth. 26 Va. App. 335, 343
(1998) (quoting Church v. Commonwealth. 230 Va. 208,215 (1985)). “The primary inquiry ... is not
whether any particular ritual has been followed in advising the defendant of his rights and accepting his
waiver, but simply whether the procedures followed were adequate to establish ‘an intentional relinquishment
of the right to counsel, known and understood by "the accused:’” Edwards v. Commonwealth. 21 Va. App.
116, 125 (1995) (quoting Kinard v. Commonwealth. 16 Va. App. 524, 527 (1993)). The Commonwealth
bears the burden of showing that a pro se defendant has “competently, intelligently,-and understanding^
waived his right to counsel.” IcL at 123-24. In reviewing this issue, we give deference to the trial court’s
subsidiary findings of fact and “review the ultimate Sixth Amendment question de novo.” Edwards. 49
Va. App. at 740.
The trial court heard argument on appellant’s motion to represent himself on February 21,2018.
Previously, the trial court had “a long discussion” with appellant about self-representation at a hearing on
January 24,2018. Appellant maintained that he wished to represent himself at his trial and signed the waiver
of counsel form during the February hearing.
Appellant argues that he “did not knowingly and intelligently waive his right to counsel as he lacked
'——------------- --—--------------------------- — ---------- —-------- --------“T

---------- ------------------------- -

the mental capacity to represent himself at trial because he suffered from severe mental illness and did not
possess the functional legal capacity for self-representation.”

M
k 2018 hearing during which the trial court

V1

addressed the perils of self-representation. Appellant also did not file a written.statement.of facts in lieu of a
transcript. See Rule 5A:8(a) and (c). The Court will cdnsider only-those issues that may. be decided without
reference to a transcript or statement of facts.
We have reviewed the record and the petition for appeal. We conclude that a timely filed transcript or
written statement of facts from the January 24. 2018 hearing is indispensable to a determination of this
assignment of error raised on appeal. See Smith v. Commonwealth. 32 Va. App. 766, 772 (2000); Turner v.
Commonwealth. 2 Va. App. 96, 99-100 (1986)

ius,
iri

appellant has failed to ensure that the record contains a

-5-

——

transcript or written statement of facts necessary to permit us to resolve the issue he presents on appeal. Rule
,/

/

5A:8(b)(4)(ii). Therefore, we deny the petition for appeal.
This order is final for purposes of appeal unless, within fourteen days from the date of this order, there
are further proceedings pursuant to Code § 17.1-407(D) and Rule 5A:15(a) or 5A:15A(a), as appropriate. If
appellant files a demand for consideration by a three-judge panel, pursuant to those mles the demand shall
include a statement identifying how this order is in error.
The trial court shall allow court-appointed counsel the fee set forth below and also counsel’s
necessary direct out-of-pocket expenses. The Commonwealth shall recover of the appellant the costs in this
Court and in the trial court.
This Court’s records reflect that Brandon C. Waltrip, Esquire, is counsel of record for appellant in this
matter.
Costs due the Commonwealth
by appellant in Court of
Appeals of Virginia:
Attorney’s fee

$400.00 plus costs and expenses
A Copy,
Teste:
Cynthia L. McCoy, Clerk

m

By:

Deputy Clerk

-6-

®f {l

VIRGINIA:
Jft the Supneme Count of- Vinginia field at the Supreme Count {Building in the
City, of {Richmond on §niday the 13th day of CLuyuot, 2021.
Appellant,

Michael Allan Webb,
against

Record No. 200968
Circuit Court No. CL20000423
Appellee.

B.L. Kanode, Warden,

From the Circuit Court of the City of Williamsburg and James City County
On June 21, 2021 and July 12, 2021 came the appellant, who is self-represented, and filed
a motion to strike and a motion for extension of time to file his petition for rehearing,
respectively, in this matter.
Upon consideration whereof, the Court denies the motions.

A Copy,
Teste:
Muriel-Theresa Pitney, Acting Clerk
By:

-V

E-xn^Dx_-rg P
1^170098
VIRGINIA:
IN THE CIRCUIT COURT OF THE CITY OF WILLIAMSBURG
COMMONWEALTH OF VIRGINIA,
v.
MICHAEL ALAN WEBB,
Defendant.
O’RDER
Upon the Motion of the Defendant and for good cause shown, it is hereby ORDERED
that a Court Reporter be provided to the Defendant to transcribe the events of Preliminary
~
Hearing scheduled in the Juvenile and Domestic Relations District Court nt the ruy nf
Williamsburg related to the prosecution of case JA017867-02-00 or any other matter.
The Clerk of the Juvenile and Domestic Relations District Court of the City of
Williamsburg is further ORDERED to schedule the appearance of such Court Reporter for all
hearings and incidents involved in this case. The Clerk of the Williamsburg Circuit Court shall
mail a copy of this ORDER postage prepaid to J. Terry Osborne, Esquire, at P.O. Box 181, King
William, Virginia 23086 and deliver to Nate Green, Esquire, at 5201 Monticello Avenue,
Williamsburg, Virginia 23188 upon entry. The costs of such Court Reporter shall be taxed
against Defendant as court costs in the event that Defendant is convicted of the offense charged.
ENTER ^ I

$

//7

Judge
'& Ask For This

Osborne, Esquire
Seen L

^ Nate Green, Esquire

VIRGINIA: CIRCUIT COURT OF THE CITY OF
WILLIAMSBURG & COUNTY OF JAMES CITY:
I CERTIFY THAT THE DOCUMENT TO WHICH THIS
AUTHENTICATION IS AFFIXED IS A TRUE COPY OF
A RECORD IN THIS COURT AND I AM THE
____ CUSTODIAN OF THAT RECORD.

Additional material
from this filing is
available in the
Clerk's Office.

